             U.S. Department of the Interior
                 Office of Inspector General

  




           Tax Collection Activities
               Government of Guam
     Revitalized Tax Collection and Enforcement
                    Effort Needed

Report No. P-EV-GUA-0002-2008         November 2008
                United States Department of the Interior
                               OFFICE OF INSPECTOR GENERAL
                                     Western Region Office
                                 2800 Cottage Way, Suite E-2712
                                  Sacramento, California 95825


                                                                                    NOV 26 2008


The Honorable Felix P. Camacho
Governor of Guam
P.O. Box 2950
Hagatna, Guam 96932
Re:      Final Evaluation Report Tax Collection Activities, Government of Guam, Revitalized
         Tax Collection and Enforcement Effort Needed
         (Report No. P-EV-GUA-0002-2008)
Dear Governor Camacho:

       The enclosed final report details the results of our evaluation of the Government of
Guam’s (Guam) tax collection activities. Our objective was to evaluate the current level of taxes
owed to Guam and determine whether Guam was making reasonable efforts to collect these
outstanding amounts.

         We found that Guam’s Department of Revenue and Taxation (DRT) is hamstrung by the
lack of adequate funding and staff, an inability to hire and retain qualified tax enforcement
officers, an ever-increasing workload, and reliance on manual processes and outdated equipment.
Our scope, methodology, and prior audit coverage are detailed in Appendices 1 and 2. We
estimate that at least $23.5 million of tax revenue is being lost each year because of the
inefficiencies at DRT (See Appendix 3). Previous reports by the Office of Inspector General
(OIG) have reported similar conditions going back almost 20 years, and as such, we believe that
your direct intervention will be needed to achieve significant and lasting improvements. With
the impending military build-up on Guam, we believe that your strong support for DRT
revitalization, including an appropriate injection of resources, could significantly increase tax
collections and improve Guam’s financial condition now and in the future.

         The report contains two recommendations that represent a holistic approach for
revitalizing DRT, restoring an effective and robust tax collection process, and generating the tax
revenues needed to support Guam’s services and programs. In your September 22, 2008
response to our draft report (Appendix 4), you concurred with our recommendations and
identified certain actions taken or in process to address some of our concerns. Based on your
response, we consider Recommendations 1 and 2 to be resolved but not implemented
(Appendix 5).
        The legislation, as amended, creating the Office of Inspector General, requires that we
report to Congress semiannually on all reports issued, the monetary effect of findings, actions
taken to implement our recommendations, and recommendations that have not been
implemented. The monetary impact of the findings in this report is shown in Appendix 3.

        Please provide a response to this report by January 9, 2009. The response should provide
the information requested in Appendix 5 and be addressed to Mr. Michael P. Colombo, Regional
Manager, Office of Inspector General, Western Region Office, 2800 Cottage Way, Suite E2712,
Sacramento, California 95825. We appreciate the cooperation shown by government staff during
our evaluation. Should you have any questions about this report, please do not hesitate to contact
me at (916) 978-5653.


                                             Sincerely,



                                             Michael P. Colombo
                                             Regional Manager

Enclosure




                                        2
CONTENTS
                  Government, Economy, and Revenues ...................................... 1
INTRODUCTION

                  Overview .................................................................................... 3
RESULTS OF
                  Tax Collection Efforts Impeded by Resource Constraints ........ 3
EVALUATION
                  Tax Information Not Processed Timely ..................................... 5
                  Tax Audits Are Unproductive and Non-Filer Identification
                  Programs Do Not Exist .............................................................. 6
                  Taxes Are Not Collected and Monitoring Systems Are
                  Ineffective................................................................................... 7
                  Criminal Investigations under Guam’s Tax Laws Are
                  Severely Hampered .....................................................................8
                  Business License Clearance Process Ineffectively
                  Implemented ................................................................................9
                  Property Taxes Lost.....................................................................9

                  To the Governor of Guam ......................................................... 11
RECOMMENDATIONS   Governor’s Response and OIG Reply ....................................... 11

                  Evaluation Scope and Methodology ........................................ 13
APPENDICES        Prior Audit Coverage................................................................ 14
                  Monetary Impact ...................................................................... 16
                  Governor of Guam’s Response .................................................17
                  Status of Recommendations ......................................................19




                                   i
INTRODUCTION
GOVERNMENT,    Guam is located 3,700 miles west-southwest of Honolulu, Hawaii,
ECONOMY, AND   and 1,500 miles south-southeast of Tokyo, Japan. In 1950, the
REVENUES       U.S. Government enacted the Guam Organic Act conferring U.S.
               citizenship on the people of Guam, establishing local self-
               government, and assigning administrative responsibility for Guam
               to the Secretary of the Interior. The Guam Organic Act provides
               for a republican form of government with locally elected executive
               and legislative branches and an appointed judicial branch. Guam
               also has an elected representative to Congress.

               In fiscal year 2006, Guam’s revenues totaled about $683 million,
               of which approximately $417 million was from taxes and fees as
               shown in figure 1 below.




                                                                          Figure 1

               Guam’s income tax system generally mirrors the Federal tax
               system. Section 31 of the Organic Act provides that the income
               tax laws in force in the United States shall be the income tax laws
               of Guam, substituting Guam for the United States where necessary
               and omitting any inapplicable or incompatible provisions. The
               U.S. Internal Revenue Code with appropriate changes therefore
               constitutes the Guam Territorial Income Tax Law. Taxes imposed
               by Guam include business privilege taxes and real property taxes
               and are assessed and collected in accordance with Title 11 of the
               Guam Code Annotated. Income taxes and business privilege taxes


                                1
represented 84 percent of Guam’s total tax revenues in FY 2006 as
shown in figure 2.




                                                             Figure 2

Guam’s Department of Revenue and Taxation (DRT) is
responsible for enforcing the income and general tax laws of Guam
and for collecting tax revenues, as well as revenues from other
sources such as licensing and registration. DRT’s stated mission is
to promote quality service to all taxpayers, increase voluntary
compliance by helping taxpayers understand and meet their
responsibilities, and apply the tax law with integrity and fairness to
all. To accomplish this, DRT reports that it has instituted
aggressive collection efforts to reduce tax receivables, identified
and initiated industry and professional audits, and aggressively
pursued fraud and non-filer cases to enhance public awareness.




                   2
RESULTS OF EVALUATION
                  DRT is hamstrung by the lack of adequate funding and staff, an
OVERVIEW          inability to hire and retain qualified tax enforcement officers, an
                  ever-increasing workload, and reliance on manual processes and
                  outdated equipment. As a result, tax information is not being
                  processed timely, tax audits are not productive, no efforts are being
                  made to identify non-filers, tax liabilities are not collected in a fair
                  and expeditious manner, and criminal prosecutions are essentially
                  non-existent. In addition, we found that a business license
                  clearance process implemented by DRT was not being used to its
                  fullest extent and that substantial property tax losses were
                  occurring because tax assessments were not based on the current
                  market values. While the total amount of tax losses associated
                  with these problems cannot be determined, we concluded that at
                  least $23.5 million is being lost each year.

                  The tax collection problems observed have existed for at least two
                  decades and have been reported on in five separate reports by the
                  OIG. Our prior reports (Appendix 2) included 57 recommendations
                  to former Governors intended to ensure that shortcomings in
                  Guam’s tax collection efforts were addressed and corrected. Many
                  of these recommendations dealt with the need to provide additional
                  resources or to make better use of existing resources.

                  DRT has been confronted with several obstacles that have resulted
TAX COLLECTION    in ineffective enforcement of Guam’s tax laws and the loss of
EFFORTS IMPEDED   significant revenues for the government.
BY RESOURCE
CONSTRAINTS       Funding. Funding levels for DRT have not kept pace with the
                  overall level of government spending. Information provided by
                  DRT showed that funding for its operations declined by 42 percent
                  from 1996 to 2003 before rebounding slightly in the last few years.
                  Total reported government expenditures held relatively stable or
                  increased during the same period.




                                     3
                                                             Figure 3

Staffing. DRT’s authorized staffing levels have dropped
significantly over the past 10 years. DRT officials and staff told us
they do not have enough staff to review past and current returns
and to adjust those needing correction. In addition, DRT staff told
us that they are continually faced with “special projects” such as
court ordered refund claim processing, prior year refund tax
notifications, and tax amnesty work that pull them away from their
normal jobs. Our review of the timesheets for four DRT auditors
confirmed that only 57 percent of their recorded time in calendar
year 2007 was spent on actual casework.




                                                             Figure 4

Hiring and Retention. DRT cannot offer competitive salaries to
attract and retain highly qualified employees. Under Guam’s pay
system, DRT pays the same salary that it paid more that 10 years
ago. A DRT official told us that because of the limit on the
amount of compensation that can be offered, DRT has been unable
to recruit graduates from the University of Guam. In addition, we


                   4
                  were told that once DRT provided specialized tax training to the
                  employees it is able to hire, many leave for higher paying jobs
                  elsewhere. Between 2003 and 2004, 8 new auditors were hired for
                  DRT’s Examination Branch, but only 3 remained at the time of our
                  review.

                  Workload. DRT’s workload continues to grow while its funding
                  and staffing shrink. Guam’s population increased by
                  approximately 18 percent during the past 10 years, thus increasing
                  the number of tax returns that must be processed. In addition,
                  changes in federal tax laws, including the Internal Revenue Service
                  Restructuring and Reform Act of 1998, focused on customer
                  service and expanded taxpayer rights, thus increasing the amount
                  of work that DRT must perform to collect taxes.

                  Equipment. DRT’s computers, software, and related equipment
                  are old and antiquated. Most tax data is still manually entered into
                  DRT’s tax information system. This involves tens of thousands of
                  tax documents a year that have to be entered, including personal
                  and corporate income tax returns, quarterly W-1s, annual
                  employer-supplied W-2s and W-3s, annual 1099s, and monthly
                  Business Privilege Tax returns. Historically, some large firms
                  provided their tax information on magnetic tape with DRT using
                  tape readers to enter tax information into the computer system for
                  reconciliation with filed tax returns. However, the tape readers no
                  longer work, and the last reconciliation was done about 3 or
                  4 years ago.

                  Because of the lack of adequate resources, DRT has accumulated a
TAX INFORMATION   backlog of documents to be processed over the past several years.
NOT PROCESSED     This backlog, and the fact that DRT’s taxpayer database is not
TIMELY            current and complete, results in DRT being unable to perform real-
                  time verifications, such as comparing employer W-2 data with W-1
                  employer taxes paid data to ensure that reported withholding taxes
                  have in fact been paid to the government. In addition, the
                  incomplete database reduces the effectiveness of the tax clearance
                  process for business licenses and makes it harder to process tax
                  returns and respond to taxpayer inquiries.




                                    5
                   Bins of tax documents from previous months wait to be processed at DRT
                   (OIG Photo)

                   Subsequent to the completion of our last site visit, DRT began
                   working diligently to eliminate at least a portion of the backlog in
                   order to take advantage of funding being provided by the
                   Department of the Treasury under The Economic Stimulus Act
                   enacted by Congress in February 2008. Since rebates to Guam’s
                   citizens are based on 2007 income tax returns, DRT staff has been
                   working overtime to process these returns as well as the backlog of
                   tax returns from prior years. While this will be an improvement
                   over the conditions we observed, additional time and resources will
                   be required to eliminate the remainder of the backlog.

                   At DRT’s Examination Branch (Examinations), we found that no
TAX AUDITS ARE
                   high-dollar value or complex corporate audits were being
UNPRODUCTIVE AND
                   performed. We were told that these audits are not performed
NON-FILER
                   because Examinations has not been able to hire or retain any senior
IDENTIFICATION
                   auditors capable of performing such audits since 2005. In 2005,
PROGRAMS DO NOT
                   Examinations’ four senior auditors identified $9.6 million of
EXIST
                   additional revenues, 91 percent of Examinations’ productivity for
                   the year. These senior auditors subsequently left Examinations
                   and production declined by $9.7 million as shown in the following
                   graph.




                                        6
                                                                          Figure 5

                In addition, we found that Examinations was not attempting to
                identify taxpayers that fail to file returns. An Examinations’
                official told us he thought the last time such an effort was made
                was sometime around FY 2000. Although DRT’s taxpayer
                database is not current and complete, it contains older information
                that could be used to identify potential non-filers. In this regard,
                we asked DRT to generate data from 2003 on W-2 filings
                submitted by employers and identify any individuals that did not
                file an income tax return. Our review of the data identified
                756 individuals that had taxable wages in excess of $15,600, the
                filing requirement for married filing jointly in 2003. In total, these
                individuals had $29.1 million in taxable income. While it would
                be preferable to have a complete and current database and perform
                automated matches on this data, Examinations should be using the
                information that is available to identify and examine instances of
                unreported income.

                DRT’s Collection Branch (Collections) was not collecting tax
TAXES ARE NOT
                liabilities in a fair and expeditious manner, resulting in an
COLLECTED AND
                undetermined amount of lost revenue and an overstatement of tax
MONITORING
                receivables by millions of dollars. We found that Collections had
SYSTEMS ARE
                over 6,000 active cases and only 24 revenue officers; an average of
INEFFECTIVE
                over 200 cases per revenue officer. According to the Collection
                Supervisor, Revenue Agents are required to either collect, abate, or
                inactivate delinquent taxes. However, in reviewing one revenue




                                   7
                   officer’s $13.5 million caseload, we determined that no recent
                   collection efforts had been made on more than 50 percent of
                   taxpayer liabilities reported to be active. Over $4.4 million of the
                   receivables were from cases that were so old the statute-of-
                   limitations had been exceeded and the debts were no longer
                   collectable.

                   One factor contributing to lack of timely tax collection efforts is
                   that Collections does not have an effective monitoring system. For
                   the year ending 2007, Collections reported nearly $90 million of
                   active receivable cases. The Collection Supervisor’s methodology
                   for tracking and monitoring the status of these cases is to print a
                   nearly 600-page report from the tax information system using a
                   standardized template that provides no ability to extract, sort or
                   manipulate data. Sections of the report are then distributed to each
                   revenue officer with instructions to pencil in case status for their
                   areas of responsibility. Although this manual process theoretically
                   allows a high level of review by the Collection Supervisor, we
                   found it to be ineffective as it required valuable staff-hours to
                   produce and allowed Revenue Officers to leave inactive and
                   uncollectible cases open. A better system is needed that ensures
                   the Supervisor is notified when Revenue Officers fail to actively
                   work cases, and taxes are in danger of being lost due to the
                   expiration of the statute-of-limitations.

                   DRT’s Criminal Investigation Branch (Investigations) is
CRIMINAL           significantly hampered by the lack of personnel. There are
INVESTIGATIONS     currently only three employees to investigate criminal violations of
UNDER GUAM’S TAX   Guam’s tax laws, such as willful failure to file returns or pay taxes,
LAWS ARE           tax evasion, fraud and false statements, and internal violations.
SEVERELY           DRT does not employ a tax attorney, and Investigations staff stated
HAMPERED           that the lack of legal support undermines their effectiveness in
                   generating viable cases for prosecution by the Attorney General’s
                   office. Only one case was referred to the Attorney General’s office
                   in the last 3 years. We were also told that cases referred to the
                   Attorney General’s office have not been prosecuted because that
                   office lacks the resources to handle these types of cases. Rather
                   than prosecute, the Attorney General’s office reportedly forwards
                   criminal tax cases to the civil court to try and obtain a civil
                   settlement. The last time a criminal tax case was prosecuted in
                   Guam was apparently sometime in the late 1990s, and the
                   government lost that case.




                                      8
                   To its credit, Guam has established a process to combat tax evasion
BUSINESS LICENSE   by requiring businesses to file their tax returns before they are
CLEARANCE          issued business licenses. We found, however, that DRT employees
PROCESS            were clearing flagged business licenses for reasons not authorized
INEFFECTIVELY      by statute. Based on limited testing of DRT’s accounts receivable
IMPLEMENTED        listing, we determined that DRT’s Collection Branch cleared
                   accounts receivable flags for one of the five businesses tested even
                   though the business had not paid, or made contractual
                   arrangements to pay, all taxes owed. In a separate test of
                   10 business licenses, we found that the Business Privilege Tax flag
                   on one license was cleared because Business Privilege Tax returns
                   were filed, but there was no evidence to document that the related
                   tax payments were actually made.

                   In addition, our review found that DRT’s implementation of the tax
                   clearance process was hobbled by the backlog of unprocessed tax
                   returns. DRT established flag dates for each type of tax return
                   based on processing status information provided by the various
                   DRT branches. These dates are entered into the computer system
                   so that the system can automatically flag potential instances of
                   noncompliance with tax return filing and payment requirements.
                   But we were told by DRT personnel that the processing of tax
                   returns was so far behind that, in 2007, DRT eliminated the flag
                   dates for income tax withholding returns and stopped checking the
                   more recent years’ income tax and business privilege returns.
                   Therefore, the tests for delinquent taxes were at best incomplete
                   and at worst non-existent.

                   The Real Property Tax Division (Real Property) is not using
PROPERTY TAXES     current market values to develop tax assessments for privately
LOST               owned real property, resulting in significant lost tax revenues.
                   Guam’s tax code mandates that all real property be reappraised
                   every five years1 to ensure that values are current. However, the
                   required periodic reappraisal has not been performed since 1993.
                   We were told that the appraisal was not done due to the lack of
                   staff to perform the work in-house and the high cost of contracting
                   for such an appraisal. In addition, Real Property currently does not
                   update property records to reflect current value when the
                   ownership of a piece of property is transferred or sold. We were
                   told that updating property values during an ownership transfer
                   would not be difficult, but it was felt that doing so would unjustly
                   burden the new owners whose taxes would be grossly
                   disproportionate to the taxes for comparable properties not
                   reappraised since 1993.


                   1
                       Until 2007, the law required reappraisals to be completed every three years.


                                           9
Citing the research of a local real estate group, which Real
Property officials agreed was probably accurate, a local Guam
newspaper recently reported that property values in Guam have
increased by 71 percent just since 2003. Using the 2005 real
property assessment of $19.5 million (that was primarily based on
1993 land values), we estimate that property taxes will be under
assessed by at least $13.8 million this year. The actual loss may be
more or less considering that our estimate does not account for
property value changes between 1993 and 2003.




                  10
RECOMMENDATIONS
                   We recommend that the Governor of Guam:
TO THE GOVERNOR
OF GUAM               1. Lead a tax administration task force in the development of
                         an action plan for revitalizing DRT and ensuring the filing
                         and payment of all taxes due Guam. This task force should
                         be established in cooperation with the Legislature and
                         include officials from tax collection authorities and tax
                         experts outside Guam, such as the Internal Revenue
                         Service. Issues addressed should include establishing
                         budget and staffing levels concomitant with an effective tax
                         collection program, eliminating impediments to the hiring
                         and retention of qualified tax enforcement staff, and
                         streamlining and modernizing DRT’s tax information
                         systems.

                      2. Coordinate with the Office of Insular Affairs (OIA) for
                         financial and/or management assistance to implement
                         fundamental financial management and systems
                         improvements at DRT.

                   In his September 22, 2008 response to our draft report
GOVERNOR’S         (Appendix 4), the Governor of Guam concurred with our
RESPONSE AND OIG   recommendations. In acknowledging our findings and recognizing
REPLY              the root problems identified in the report, the Governor stated he is
                   committed to resolving the resource constraints outlined in our
                   report and to revitalizing Guam's tax collection and enforcement
                   efforts. The Governor stated that he believes our concerns will be
                   resolved upon full implementation of a newly acquired computer
                   scanner capable of reading tax return information resulting in
                   efficient processing of returns for audit and tax collection purposes.
                   He also stated that his management team is addressing procedural
                   matters raised by our report, including conducting a government-
                   wide pay study and issuing a Request for Proposals for a
                   "Computer Assisted Mass Appraisal Program" targeted for full
                   implementation by March 2009. Finally, the Governor stated that
                   he has directed his Chief of Staff to assemble a tax administration
                   task force involving the Internal Revenue Service to develop an
                   action plan to ensure revitalization of Guam’s tax collection
                   efforts, and has also directed the Chief of Staff to initiate dialogue
                   with OIA to obtain any available assistance.

                   We are pleased that the Governor concurred with our
                   recommendations and has taken the first steps toward building a


                                     11
healthier and more vital tax collection process. Full
implementation of the newly acquired computer scanner has the
potential to substantially increase DRT’s tax return processing
productivity. It also carries the promise that DRT’s taxpayer
database might someday be made current and complete, although
this goal cannot be achieved without substantial additional work to
fill gaps and correct errors in the data from previous years. And
while we agree that increased automation is a key component of
DRT revitalization, the purchase and implementation of the newly
acquired computer scanner is not a panacea for the multitude of
long-standing problems besetting DRT. Repairing damage done to
Guam’s tax collection apparatus by 20 years of neglect will
undoubtedly prove to be a long and difficult task. We believe,
however, that the financial rewards that Guam can gain from this
effort are well worth the investment of time, effort, and resources.

While it will be for the Governor’s task force to identify a specific
action plan for revitalizing DRT, we believe that time is of the
essence. For example, once the computer assisted mass appraisal
program is up and running, DRT should be in a position to begin
collecting millions of dollars of additional property tax revenues.
If in turn these revenues were reinvested in the hiring and training
of additional tax enforcement and collection officers, DRT could
once again participate in proactive tax enforcement activities such
as non-filer identification programs and field investigations. Such
activities should yield substantial additional income tax collections
from taxpayers and businesses that currently do not pay taxes or
that pay less than they should, as well as from the many new
contractors that the Department of the Defense will employ to
complete the impending military build-up on Guam.

Based on the Governor’s response, we consider Recommendations
1 and 2 resolved but not implemented. The status of the
recommendations is shown in Appendix 5.




                  12
Appendix 1 - Evaluation Scope and Methodology
               The objective of our evaluation was to identify the current level of
               taxes and fees owed to Guam and determine if Guam was making
               reasonable efforts to collect these outstanding amounts.

               We performed our evaluation work from November 2007 through
               June 2008.

               To accomplish our objective, we reviewed Guam’s tax laws and
               interviewed officials from DRT and other branches of the
               government of Guam. We reviewed tax forms, tax payment
               records, computerized tax information, collection history files, tax
               clearance letters, and annual tax bills.

               Our evaluation was conducted in accordance with the January 2005
               Quality Standards for Inspections issued by the President’s
               Council on Integrity and Efficiency and included limited testing of
               records. As part of the evaluation, we assessed DRT’s tax
               assessment and collection policies and procedures to the extent we
               considered necessary to accomplish our objective.




                                 13
Appendix 2 – Prior Audit Coverage
               Over the past 20 years, we have performed numerous audits and
               evaluations of various aspects of Guam’s tax collection process.
               Common to each of these reports are deficiencies that collectively
               demonstrate a systemic breakdown in tax administration and
               enforcement, which undermines public confidence in the fair
               administration of Guam’s tax laws. Our reports in these areas
               include the following:

               ¾ July 1998, Assessment and Collection of Gross Receipts Taxes,
                 Department of Revenue and Taxation, Government of Guam
                 (No. 98-I-570). DRT did not ensure that delinquent gross
                 receipts taxes (GRT) were collected and did not use available
                 sources of information to identify businesses that had not filed
                 GRT returns. This occurred because collections staff were
                 transferred to other divisions, non-filer identification programs
                 were not established, and tax information was not entered into
                 the automated tax system. The report made 5 recommendations
                 to the Governor to correct the conditions noted.

               ¾ June 1991, Processing and Collection of Income Taxes,
                 Department of Revenue and Taxation, Government of Guam
                 (No. 91-I-969). DRT did not ensure that potential non-filers
                 identified through non-filer identification programs actually
                 filed tax returns, did not utilize available resources to identify
                 and locate other non-filers, and did not take timely actions to
                 collect from delinquent taxpayers. This occurred because DRT
                 had not: (1) assigned staff and a program coordinator to
                 investigate and manage non-filer cases, (2) developed a non-
                 filer program plan, (3) developed desk procedures to ensure
                 that collection actions were taken timely on delinquent
                 accounts, (4) developed procedures concerning the waiver of
                 interest and penalties on delinquent taxes, and (5) reconciled
                 tax receivable cases at the Collection Branch with official
                 accounting records. The report made 16 recommendations to
                 the Governor to correct the conditions noted.

               ¾ April 1991, Assessment of Income Taxes, Department of
                 Revenue and Taxation, Government of Guam (No. 91-I-687).
                 DRT did not ensure that income taxes were properly assessed,
                 violators were prosecuted, and penalties and interest were
                 properly assessed and collected. This occurred because DRT
                 had not: (1) provided the necessary resources and guidance to
                 the Investigation and Examination Branches, (2) developed


                                 14
   written procedures or provided adequate training to staff,
   (3) designated a fraud coordinator, (4) required written
   statements to support reductions in tax deficiencies proposed
   by the Examination Branch, (5) developed procedures and a
   monitoring system to ensure that tax cases were processed
   prior to the expiration of the statute-of-limitations, and
   (6) developed annual examination plans to guide the selection
   of tax returns for audit. The report made 14 recommendations
   to the Governor to correct the conditions noted.

¾ June 1990, Assessment and Collection of Property Taxes,
  Department of Revenue and Taxation, Government of Guam
  (No. 90-72). DRT did not ensure that property taxes were
  properly assessed and collected. In particular, DRT did not
  complete the required triennial reappraisal of Guam real
  property in a timely manner, did not enforce the collection of
  delinquent property taxes, and did not maintain accurate
  property records. This occurred because DRT delayed a
  decision on how to conduct the 1990 reappraisal and then did
  not provide sufficient funds to perform the reappraisal work in-
  house. In addition, DRT elected not to auction tax-deeded
  property to ensure that delinquent property taxes were collected
  and did not develop controls to ensure that accounts receivable
  and property ownership records were accurate. The report
  made 9 recommendations to the Governor to correct the
  conditions noted.

¾ May 1989, Gross Receipts Tax Billing and Collection
  Practices, Department of Revenue and Taxation, Government
  of Guam (No. 89-70). DRT did not adequately verify taxes
  reported, control delinquent accounts, perform comprehensive
  searches for delinquent taxpayers’ assets, effectively use its
  enforcement options, and investigate potential tax violators and
  non-filers. This occurred because DRT did not adhere to
  existing procedures and apply its enforcement authority, and
  procedures did not include provisions for effective and timely
  execution and control of assessment, collection, and
  enforcement activities. The report made 13 recommendations
  to the Governor to correct the conditions noted.




                 15
Appendix 3 – Monetary Impact


                                                        UNCOLLECTED
                           FINDING AREA                   REVENUES
                                                        (IN MILLIONS)

 Examination Branch Productivity Losses (annual)             $ 9.7

 Real Property Taxes Lost (annual)                           $13.8


      Total                                                  $23.5




                                                   16
Appendix 4 – Governor of Guam’s Response




                        17
18
Appendix 5 – Status of Recommendations


      Finding/
  Recommendation      Status                       Action Required


        1          Resolved, Not   We look forward to receiving the tax
                   Implemented.    administration task force’s action plan for
                                   revitalizing DRT and evidence of actions taken by
                                   Guam to implement the action plan.

        2          Resolved, Not   We look forward to receiving evidence of Guam’s
                   Implemented.    efforts to coordinate with OIA for financial and/or
                                   management assistance to implement fundamental
                                   financial management and systems improvements
                                   at DRT.




                                      19
    Report Fraud, Waste, Abuse
       And Mismanagement
                  Fraud, waste, and abuse in
               government concerns everyone:
              Office of Inspector General staff,
              Departmental employees, and the
             general public. We actively solicit
              allegations of any inefficient and
             wasteful practices, fraud, and abuse
           related to Departmental or Insular area
          programs and operations. You can report
              allegations to us in several ways.



By Mail:               U.S. Department of the Interior
                       Office of Inspector General
                       Mail Stop 4428 MIB
                       1849 C Street, NW
                       Washington, D.C. 20240

By Phone:              24-Hour Toll Free         800-424-5081
                       Washington Metro Area     703-487-5435

By Fax:                703-487-5402

By Internet:           www.doioig.gov



                                                          Revised 06/08
